                   AUDIT REPORT



                 Audit of NRC’s Grant Management
                             Program

                OIG-09-A-16 September 29, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          September 29, 2009


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations

                            Stephen Burns
                            General Counsel



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S GRANT MANAGEMENT PROGRAM
                            (OIG-09-A-16)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Grant Management Program. The report presents the results of the subject audit. At a
September 14, 2009, exit conference, agency senior executives provided suggested
revisions to the discussion draft report. This report incorporates revisions made, where
appropriate, as a result of the agency’s suggestions.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Steven Zane, Team Leader, Financial and Administrative Audit Team, at
415-5912.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                    Audit of NRC’s Grant Management Program



EXECUTIVE SUMMARY

   BACKGROUND

         Pursuant to the Atomic Energy Act of 1954, as amended, and in
         conjunction with the Federal Grant and Cooperative Agreement Act of
         1977, the U.S. Nuclear Regulatory Commission (NRC) may enter into
         arrangements to provide financial assistance to support programs with a
         public purpose that the Government wishes to encourage. Such
         assistance is provided through grants and cooperative agreements to
         educational institutions, nonprofit organizations, State and local
         governments, and professional organizations.

         This report focuses on NRC’s grant program, which has grown
         significantly since fiscal year 2005 in response to legislation authorizing
         the agency to increase its nuclear education grants to universities for
         course and curricula development, fellowships, scholarships, and faculty
         development.

   PURPOSE

         The purpose of this audit was to determine whether NRC has established
         and implemented an effective system of internal controls for grants
         management.

   RESULTS IN BRIEF

         NRC’s grant program has grown considerably over the past several years.
         While the agency (a) recently achieved compliance with a Federal
         requirement to post monthly data on its grant spending on a Federal
         Government Web site, NRC (b) lacks overarching guidance concerning
         the current grant program, (c) does not require grants staff to have grant-
         specific training, (d) has incomplete and inconsistent grant files, and (e)
         has not issued a Federal regulation on debarment and suspension of
         irresponsible grantees. As a result of these program weaknesses, NRC
         lacks assurance of adequate oversight of the grant program, which can
         adversely affect the proper use of funds.

   RECOMMENDATIONS

         This report makes recommendations to improve controls over the grants
         management program. A consolidated list of these recommendations
         appears in Section VI of this report.




                                        i
                                              Audit of NRC’s Grant Management Program



AGENCY COMMENTS

     At a September 14, 2009, exit conference, agency senior executives
     provided suggested revisions to the discussion draft report. This report
     incorporates revisions made, where appropriate, as a result of the
     agency’s suggestions.




                                   ii
                                           Audit of NRC’s Grant Management Program



ABBREVIATIONS AND ACRONYMS

       2 CFR   Title 2, Code of Federal Regulations

       DC      Division of Contracts

       HR      Office of Human Resources

       MD      Management Directive

       NRC     Nuclear Regulatory Commission

       OGC     Office of the General Counsel

       OIG     Office of the Inspector General

       OMB     Office of Management and Budget

       RES     Office of Nuclear Regulatory Research

       SBCR    Office of Small Business and Civil Rights




                               iii
                           Audit of NRC’s Grant Management Program




[Page intentionally left blank.]




               iv
                                                                   Audit of NRC’s Grant Management Program



TABLE OF CONTENTS

       EXECUTIVE SUMMARY ......................................................................... i

       ABBREVIATIONS AND ACRONYMS.....................................................iii

       I.     BACKGROUND .............................................................................. 1

       II.    PURPOSE....................................................................................... 3

       III.   FINDINGS ....................................................................................... 4

              A. NRC ACHIEVED COMPLIANCE WITH DATA
                 POSTING REQUIREMENT................................................................ 4

              B. AGENCY LACKS COMPREHENSIVE GUIDANCE ON GRANTS................ 6

              C. NRC DOES NOT REQUIRE GRANTS TRAINING............................... 10

              D. GRANT FILES ARE INCONSISTENT AND INCOMPLETE ....................... 13

              E. NRC HAS NOT ISSUED A REGULATION ON
                 DEBARMENT AND SUSPENSION .................................................... 18

       IV. CONCLUSION .............................................................................. 20

       V.     AGENCY COMMENTS ................................................................. 21

       VI. CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 22

       APPENDICES

       A.     SCOPE AND METHODOLOGY.................................................... 23

       B.     BEST PRACTICES ....................................................................... 25




                                                   v
                           Audit of NRC’s Grant Management Program




[Page intentionally left blank.]




               vi
                                                                Audit of NRC’s Grant Management Program



I.     BACKGROUND

               Pursuant to the Atomic Energy Act of 1954, as amended, and in
               conjunction with the Federal Grant and Cooperative Agreement Act of
               1977, the U.S. Nuclear Regulatory Commission (NRC) may enter into
               arrangements to provide financial assistance to support programs with a
               public purpose that the Government wishes to encourage. Such
               assistance is provided through grants and cooperative agreements to
               educational institutions, nonprofit organizations, State and local
               governments, and professional organizations.

               Both grants and cooperative agreements are legal instruments for
               transferring money, property, or services to a recipient. However,
               Government involvement with the recipient differs for the two forms of
               assistance. For cooperative agreements, “substantial involvement” is
               expected between the Federal agency and the recipient. In contrast, for
               grants, there is no substantial involvement between the Federal agency
               and the recipient.

               Grants and cooperative agreements differ significantly from contracts,
               which are used to acquire supplies or services for the direct benefit or use
               of the Government. While agencies must monitor contractor performance
               closely to ensure work is performed satisfactorily and in a timely manner,
               the standards for monitoring grantees are less prescriptive. Federal
               grants staff are expected to exercise prudent oversight of Government
               funds; however, there is no statute or governmentwide rule or policy
               governing grant monitoring. Title 2, Code of Federal Regulations (2 CFR),
               “Grants and Agreements,” contains some requirements that prescribe or
               limit activities or information (e.g., site visits, reports) needed for
               monitoring, but beyond this, it is left to agencies to develop their own
               specific monitoring expectations.

               This report focuses on NRC’s grant program, which has grown
               significantly since fiscal year (FY) 2005 in response to legislation
               authorizing the agency to increase its nuclear education grants to
               universities for course and curricula development, fellowships,
               scholarships,1 and faculty development. In FY 2005, NRC provided
               approximately $564,000 in assistance to outside entities, and in FY 2006,
               about $1.5 million.2 In FY 2007, the agency provided approximately $7
               million in grants, and in FY 2008, this figure increased to about $20
               million.

1
 Scholarship money is also provided to trade schools and community colleges.
2
 Data for FYs 2007 and 2008 was provided by the Division of Contracts and covers grant dollars only.
Data for FYs 2005 and 2006 is from USASpending.gov, a Federal Government Web site developed for
agencies to report publicly on financial assistance spending. USASpending.gov data for NRC includes
both grants and cooperative agreements.


                                                  1
                                          Audit of NRC’s Grant Management Program




There are no deliverables associated with NRC’s education grants, except
for project and financial progress reports. According to an Office of
Human Resources (HR) employee who manages NRC’s education grant
program, there are no deliverables because the grant money is provided
to the grantee to use for its program. The manager said that if a grantee
is found not to have performed the work per the grant agreement, the
grantee would place itself at risk of not receiving another grant.

Grant Awards

NRC administers two types of grants: competitive and noncompetitive.
Competitive grants are awarded – after an NRC review and evaluation
process – to applicants who responded to an NRC funding opportunity
announcement for a grant award. Noncompetitive grants are awarded to
entities that write to NRC at any given time and propose a project that
NRC determines aligns with its mission, provided money is available to
fund the effort. These two types of grants are also referred to as solicited
and unsolicited.

Grants are awarded and administered by staff in the Division of Contracts
(DC) and monitored by grant “project officers” in the NRC office that
recommended a particular grant should be awarded. When an NRC office
decides a grant should be made, it transmits a request for procurement
action to DC to initiate the grant award process. DC reviews the grant
proposal to ensure conformance with 2 CFR requirements and negotiates
with prospective grantees before awarding the grant. Also prior to award,
staff in the Office of the General Counsel (OGC) and the Office of Small
Business and Civil Rights (SBCR) review the request for procurement
action package, which includes the grant application. The purpose of
OGC’s review, of proposed awards valued over $25,000, is to determine
whether the grant application complies with the terms of the grant
opportunity announcement, a grant is the proper type of instrument, and
that there are no apparent conflicts of interest posed by the grant
application. SBCR’s review is to determine if potential grantee is in
compliance with Federal civil rights requirements.

Currently, there are three offices that manage grants: HR, the Office of
Nuclear Regulatory Research (RES), and SBCR.

Grant Spending

Ninety percent of NRC’s FY 2007 and FY 2008 grant spending was for
competitive, educational grants managed by HR. Table 1 provides a
breakdown of NRC grants awarded in FY 2007 and FY 2008 by managing
office.



                               2
                                                                  Audit of NRC’s Grant Management Program



            Table 1. Grants Awarded in FYs 2007 and 2008 by NRC Office*

              Managing         FY 2007          FY 2007        FY 2008          FY 2008
               office          # grants        $ awarded       # grants        $ awarded

             HR                          37          4.94M               96        19.72M

             SBCR                          5         0.47M                 6         0.41M

             RES                         13          1.57M               11          0.29M

             TOTAL                       55          6.98M              113        20.42M
             *Source: Office of the Inspector General (OIG) generated using data provided
             by DC.

                Lean Six Sigma Review

                In October 2008, NRC initiated a Lean Six Sigma3 review of the agency’s
                grant process to reduce overall processing time and implement a formal,
                electronic tracking system. The Lean Six Sigma review team includes
                representatives from the multiple offices involved in NRC’s grant process:
                DC, HR, SBCR, RES, OGC, and the Office of the Chief Financial Officer.
                A July 2009 article in the NRC Reporter noted that the Lean Six Sigma
                team for grants had recently reported to agency senior managers that the
                review was in its final phase, which involves assigning specific
                responsibility for the improvement tasks identified and ensuring that all of
                the agreed-on items are closed out. During the briefing, the team’s
                spokesman noted that the Lean Six Sigma grants review had already
                reduced the average time for awarding noncompetitive grants from 191 to
                108 days and for closing out grants from 77 to 33 days, resulting in a
                savings of about 2,700 days a year.


II.     PURPOSE

                The purpose of this audit was to determine whether NRC has established
                and implemented an effective system of internal controls for grants
                management. See Appendix A for information on the audit scope and
                methodology.



3
 Lean Six Sigma is a methodology that facilitates the review of processes, both technical and
administrative, to identify opportunities for process improvements. The results are intended to enhance
efficiency, effectiveness, and knowledge management.



                                                    3
                                                     Audit of NRC’s Grant Management Program



III.   FINDINGS

            NRC’s grant program has grown considerably over the past several years.
            While the agency (a) recently achieved compliance with a Federal
            requirement to post monthly data on its grant spending on a Federal
            Government Web site, NRC (b) lacks overarching guidance concerning
            the current grant program, (c) does not require grants staff to have grant-
            specific training, (d) has incomplete and inconsistent grant files, and (e)
            has not issued a Federal regulation on debarment and suspension of
            irresponsible grantees. As a result of these program weaknesses, NRC
            lacks assurance of adequate oversight of the grant program, which can
            adversely affect the proper use of funds.


       A.   NRC Achieved Compliance with Data Posting Requirement

            Prior to May 2009, NRC was not in compliance with Federal requirements
            to provide the public, via a Federal Government Web site
            (USASpending.gov), with accurate, timely information on Federal
            assistance. However, during the course of this audit, NRC corrected the
            issue and populated the designated Web site with updated information on
            assistance funds.

            Reporting Requirements

            All Federal agencies are required to report accurate and timely information
            on agency spending via USASpending.gov, a Federal Government Web
            site designed and designated for this purpose. The Web site was
            developed pursuant to the Federal Funding Accountability and
            Transparency Act of 2006, which was signed into law on September 26,
            2006. The act required the Office of Management and Budget (OMB) to
            create a single searchable Web site, accessible for free by the public,
            which included information on each Federal award. The act also required
            OMB to issue guidance and instructions to Federal agencies on populating
            the Web site. On March 6, 2008, OMB issued guidance requiring Federal
            agencies to submit monthly data on awards and providing technical details
            on how to submit data.




                                          4
                                                            Audit of NRC’s Grant Management Program



              NRC in Compliance

              At the start of this audit, the USASpending Web site contained no
              information on NRC financial assistance to outside entities, a problem
              noted in a March 2009 letter from a Senate subcommittee4 ranking
              member to the OMB Director. During the course of this audit, however,
              NRC corrected problems it was having populating the Web site, and now
              the site contains information on NRC assistance funds.

               The NRC official responsible for submitting information to the
              USASpending Web site explained that although no NRC data appeared on
              the Web site prior to May 2009, NRC had been submitting the requested
              information to OMB each month. The official said that due to data
              compatibility problems, OMB had been unable to add NRC’s data to the
              USASpending site. NRC ultimately resolved the problem by working with
              an NRC contractor to generate a compatible report. As a result,
              information concerning NRC awards is now available on the USASpending
              Web site.




4
 Senate Subcommittee on Federal Financial Management, Government Information and International
Security.


                                                5
                                                 Audit of NRC’s Grant Management Program



B.   Agency Lacks Comprehensive Guidance on Grants

     NRC lacks a comprehensive guidance document describing the agency’s
     grant policy and process to ensure the program functions as intended and
     that staff fulfill their responsibilities. Before such guidance can be written,
     the agency needs to complete its effort to define the competitive grant
     process. Without comprehensive guidance that includes options for
     managing grants, staff employ inconsistent approaches to managing
     grants. Additionally, NRC staff lack a clear understanding of the roles and
     responsibilities of the various individuals and offices involved in the grant
     process.

     Comprehensive Guidance Document

     To ensure the grants management program runs effectively, NRC
     employees need a comprehensive guidance document. Such guidance
     should include the roles and responsibilities of individuals and offices with
     program responsibility and policies and procedures conveying
     management expectations for program operation.

     NRC Lacks Comprehensive Guidance

     NRC lacks a comprehensive guidance document describing the agency’s
     current grants policy and process. NRC’s Management Directive and
     Handbook (MD) 11.6, Financial Assistance Program, addresses grants but
     contains outdated guidance and does not describe the current competitive
     grant program. There is also a short section in MD 11.1, NRC Acquisition
     of Supplies and Services, that some employees refer to for processing
     unsolicited (noncompetitive) grant proposals; however, the section actually
     refers to contracts and not to grants.

     Furthermore, MD 11.6 does not describe the competitive education grant
     program currently in place at NRC or provide guidance on monitoring of
     grantees to ensure that grant funds are used for their intended purpose.
     Although MD 11.6 describes (1) solicited and unsolicited proposals; (2)
     how to determine whether the proposal is appropriately funded by a grant,
     cooperative agreement, or contract; (3) factors to consider in evaluating
     proposals; and (4) SBCR’s and OGC’s roles in the process, much of the
     guidance is outdated. While MD 11.6 refers several times to a review
     process for solicited RES grants – when RES does not currently have any
     solicited grants – it makes no mention of the competitive HR grant
     program through which most of NRC’s grant dollars are currently awarded.
     Furthermore, while MD 11.6 contains information on receiving proposals,
     reviewing proposals, making awards, recordkeeping, and several other
     topics, the guidance is silent on appropriate methods for monitoring
     grantees to ensure the grant money is being used as intended.


                                     6
                                           Audit of NRC’s Grant Management Program



 Although the purpose of MD 11.1 is to address the acquisition of supplies
and services through procurement actions at NRC, some program office
staff involved with noncompetitive grants reported they found it useful for
the evaluation of unsolicited grant proposals. MD 11.1 contains a brief
section on evaluating and processing unsolicited proposals; however, it is
written specifically for contracts and refers readers to MD 11.6 for
information on grants. As noted in the background section of this report,
the Government has significantly less involvement with grantees than with
contractors, and the purpose of a grant is to accomplish a public purpose
of support or stimulation, which is fundamentally different from the
contract’s purpose to acquire supplies and services for the Government.

Agency staff from offices involved with the grant process acknowledged
the importance of developing a management directive that describes
NRC’s current grant program. The Lean Six Sigma team also recognizes
this as a major issue that needs to be resolved.

NRC Needs To Resolve Matters

NRC lacks overarching guidance describing the current grant program
because such guidance cannot be written until the agency completes its
effort to define the competitive grant process. The Lean Six Sigma grants
review team has worked to define both the noncompetitive and competitive
processes. While the team has agreed on the noncompetitive process, it
has been unable to agree on the competitive process and, thus far, that
process is undocumented.

During a July 2009 briefing to NRC’s Deputy Executive Directors for
Operations, the Lean Six Sigma team conveyed the issues that need to be
resolved before a comprehensive management directive can be written.
These unresolved issues included:

   Defining the competitive process, including issuing the agency grant
    announcement and the use of letters of intent to potential grantees.

   Uniformity of competitive process at NRC.

   Handling of multiyear awards.

   Post-award administration (roles and responsibilities).

   Location and process of updating one, shared electronic file.

   Existence of one grants office or team within an existing office.

   Scope of SBCR reviews.


                               7
                                            Audit of NRC’s Grant Management Program



Some of the difficulties reaching agreement may be attributable to the
different grant backgrounds held by staff in DC and HR. To help manage
NRC’s expanded grant program, both offices hired staff with grant
experience from other Federal agencies. However, these staff have
different views on how the program should be run, based on their prior
experience, which has made it difficult to reach agreement on some of the
Lean Six Sigma issues.

Inconsistencies and Lack of Clarity on Roles and Responsibilities

Without comprehensive guidance that includes options for managing
grants, staff employ inconsistent approaches to managing grants.
Additionally, NRC staff lack a clear understanding of the roles and
responsibilities of the various individuals and offices involved in the grant
process.

OIG identified that project officers have inconsistent approaches for
managing their grants. One such inconsistency relates to grantee
oversight. Two project officers use site visits routinely to monitor grantees,
while a third project officer was unaware that site visits were an option
available for monitoring grantees.

Another example of inconsistency pertains to ensuring the receipt of
progress reports. While HR recently established a tracking process to
ensure submission of required project progress reports, DC has no similar
process to ensure financial progress reports are submitted.

Furthermore, NRC offices disagree over grant program roles and
responsibilities. While HR project managers believe they should maintain
their applicant screening process records in HR to ensure confidentiality,
DC staff believe that information should be maintained by DC in the official
grant file. Conversely, HR staff believe they should have access to
grantee financial progress reports, while DC staff, who typically receive the
reports, do not think this is necessary and do not necessarily provide them
to HR staff when asked. In addition, some staff did not understand
SBCR’s review of grant proposals and felt it was burdensome to
prospective grantees.

Recommendations

OIG recommends that the Executive Director for Operations:

1.     Resolve outstanding Lean Six Sigma issues, including definition of
       the competitive grant process, roles and responsibilities,
       development of a shared electronic grant database, and scope of
       SBCR reviews.



                                8
                                        Audit of NRC’s Grant Management Program



2.   Update Management Directive 11.6 to comprehensively address
     NRC’s competitive and noncompetitive grant program, including (a)
     roles and responsibilities of individuals and offices involved in the
     grant process, (b) process for awarding grants, and (c) required
     monitoring by project officers.

3.   Issue interim guidance to accomplish the intent of recommendation
     2, pending revision of Management Directive 11.6.




                            9
                                                                  Audit of NRC’s Grant Management Program



        C.     NRC Does Not Require Grants Training

                NRC employees responsible for awarding and managing grants need to
                be trained in order to adequately perform their assigned duties. Currently,
                there are varying degrees of training and experience among these staff
                because management does not require training for those administering the
                grant program. As a result, the NRC lacks assurance of adequate
                oversight of the grant program, which can adversely affect the proper use
                of grant funds.

                Training Needs
                NRC employees responsible for awarding and managing grants need
                training to adequately perform their assigned duties. Such training should
                allow personnel to gain and maintain a level of competence that allows
                them to accomplish their assigned duties. Furthermore, management
                needs to identify appropriate knowledge and skills needed for various jobs
                and provide appropriate training.

                 In addition, in February 2009, the National Procurement Fraud Task
                Force, Grant Fraud Committee, published a White Paper5 with
                recommendations for enhancing the grant oversight process. The White
                Paper was based on the Committee’s survey of National Procurement
                Fraud Task Force members to identify effective methods for detecting and
                preventing grant fraud. Survey respondents emphasized the importance
                of training in preventing and detecting grant fraud. (See Appendix B for a
                list of “best practices” compiled during audit fieldwork from the White
                Paper and other sources.)

                Varying Levels of Training and Experience Among Staff

                There are varying degrees of training and experience among NRC
                personnel involved with awarding and managing grants. Auditors
                reviewed the iLearn6 training records for the 26 staff (15 grant project
                officers and 11 DC staff) who either (1) awarded and provided oversight
                for the agency’s FY 2007 and FY 2008 grants7 or (2) are working on the
                agency’s FY 2009 grants. Records reviewed reflect training that occurred
                between October 1, 2004, and July 1, 2009. The following graph shows
                that of the 26 staff:




5
  A Guide to Grant Oversight and Best Practices for Combating Grant Fraud, February 2009.
6
  iLearn is a “learning management system,” which stores NRC employee training records and allows
employees to submit training requests and register online for classes.
7
  Sixteen project officers provided oversight of the FYs 2007 and 2008 grants; however, one of the project
officers no longer works for the agency and no iLearn records were available.


                                                   10
                                           Audit of NRC’s Grant Management Program



   7 of 11 DC staff have not had any specific grant training.

   3 of 11 DC staff have had 1 grant specific training course.

   1 of 11 DC staff has had 2 grant specific training courses.

   None of the 15 project officers have had any specific grant training.



          Grant Training for Project Officers and DC Staff

           DC staff w ith 0
             courses, 7




                                                        Project officers w ith
                                                           0 courses, 15
        DC staff w ith 1
          course, 3


                DC staff w ith 2
                  courses, 1



At the September 14, 2009, exit conference, agency managers noted that
the iLearn system may be incomplete and does not reflect training
received prior to NRC employment or informal, in-house training provided
to staff.

Agency employees working with grants also have varying levels of
experience in this area. An agency official noted that several individuals
were hired from other agencies to work on NRC’s grant program because
of their extensive training and experience managing Federal grants.
However, due to the volume of grant-related work that DC must deal with
during certain time periods, the office must borrow DC staff with little or no
grant experience to work on awarding grants. None of the staff who work
on grants are required to have any NRC-specific or general grants
training. While NRC does not offer formal grants training courses, an
NRC official represented that DC conducted two informal sessions for DC
and other NRC staff in FY 2009. In addition, formal training is readily
available in the Washington, D.C., metropolitan area.




                                   11
                                            Audit of NRC’s Grant Management Program



No Training Requirements

NRC management does not require grant-specific training for those
awarding and managing grants. At this time, there are no overarching
Federal standards for grants training; instead, it is left up to each individual
agency to set their own requirements. However, a Chief Financial
Officer’s Council subgroup is working to develop Federal grant training
standards. As of August 2009, NRC had no defined training requirements
for staff responsible for awarding and managing grants.

Adequate Oversight Not Assured

Without training requirements for staff awarding and managing grants, the
agency lacks assurance that the grant program has adequate oversight,
which can adversely affect the proper use of more than $20 million in
grant funds. For example, when OIG asked one project officer about the
use of site visits to monitor grantees, the project officer stated that these
could have been useful; however, the project officer was not aware that
site visits were an option.

Recommendations

OIG recommends that the Executive Director for Operations:

4.     Develop grant specific training requirements for staff who work on
       grants to include a reasonable period of time (such as 18 months)
       for completion of the training.

5.     Ensure that staff working on grants complete the required training
       within the specified timeframe identified in response to
       recommendation 4.




                               12
                                                                     Audit of NRC’s Grant Management Program



        D.      Grant Files Are Inconsistent and Incomplete

                NRC grant files need to be complete and uniformly organized to facilitate
                informed decisionmaking by staff involved in the grant process. However,
                NRC official grant files are inconsistently organized and often incomplete.
                This is because agency management has not established standards or
                requirements for the content and organization of these files. Without
                timely and easy access to all relevant information on each grant award,
                NRC decisionmakers cannot always make fully informed decisions about
                awarding and managing grants.

                File Requirements

                NRC grant files need to be complete and uniformly organized to facilitate
                informed decisionmaking by staff involved in the grant process. NRC
                decisionmakers should have access to all relevant information in order to
                make fully informed decisions about awarding and managing grants.
                Specifically, they need access to past performance records, both internal
                to NRC and from other Federal agencies (e.g., OMB A-133 audit reports8);
                current award agreements, including terms and conditions; and progress
                reports, both financial and programmatic.

                Based on interviews with DC staff, OIG determined that at a minimum, the
                following items should be reflected in the official grant file:

                    Proposal document – This document is the grantee’s proposed
                     project to meet the grant award.

                    Budget justification – This document reflects a monetary breakdown
                     of the funds requested to address the proposal.

                    Request for procurement action – The program office creates a
                     request for procurement action and DC’s receipt of this document
                     initiates the awarding phase of the grant process.




8
  Entities (e.g., a grantee) that expend more than $500,000 in Federal awards must receive an annual
audit in accordance with OMB Circular A-133. These audit reports report on the health of the grantee.
Specifically, the audit looks to ensure (1) financial statement information is presented fairly, (2) internal
controls are sufficient and (3) compliance with applicable laws, regulations, and provisions of the award.
The audit on each grantee is performed by “the cognizant audit agency.” The designated cognizant
agency for audit is the Federal awarding agency that provides the predominant amount of direct funding
to a recipient unless OMB designates a different cognizant agency for audit. NRC is not the cognizant
audit agency for any grantee.


                                                      13
                                                                Audit of NRC’s Grant Management Program



                  Evidence of OGC review9 – OGC reviews each grant award to ensure
                   the award meets the terms of the grant program and to ensure there
                   are no conflicts of interest.

                  Evidence of SBCR compliance review – SBCR reviews each grant
                   award to assess that the grantee is in compliance with mandatory civil
                   rights statutes.

                  OMB A-133 audit results – These audit reports report on the health of
                   the grantee.

                  Summary of the decision to award – During FYs 2007 and 2008, DC
                   used a memo format to summarize its review during the awarding
                   phase. This document illustrates why a grant can be awarded.

                  Award document – This document is the agreement that binds NRC
                   and the grantee to the award.

                  Progress reports - Grant terms and conditions require the grantee to
                   submit two semiannual progress reports that outline (1) financial
                   expenditures and (2) project progress. These reports should be
                   included in the grant files along with evidence that these documents
                   were reviewed to determine progress and expenditures were
                   appropriate.

                Files Are Inconsistently Organized and Often Incomplete

                NRC official grant files are inconsistently organized and only 1 of 36 files
                reviewed was complete. NRC’s official files are hard copy folders
                maintained within DC. These files are created when a contract specialist
                begins the pre-award review process. All documentation supporting the
                decision to award the grant should be maintained within these files.
                Additionally, after the grant is awarded, the specialist keeps copies of all
                modifications to award agreements and any semiannual progress reports
                submitted by the grantee.

                OIG reviewed official grant files for 36 (approximately 29 percent) of 126
                grants10 awarded in FY 2007 and FY 2008 to assess whether they
                contained key award and monitoring documentation. Only one grant file



9
  As noted in the Background section of this report, OGC reviews grant proposals valued at more than
$25,000.
10
   NRC awarded 168 grants during FYs 2007 and 2008; however, for purposes of this review, OIG
counted the universe as 126 because some grants received funds in both fiscal years and therefore
shared the same official file within the Division of Contracts.


                                                  14
                                                    Audit of NRC’s Grant Management Program



      reviewed contained all relevant and significant documentation. Table 2
      illustrates the criteria used (see pages 13-14) to review the official grant
      folders and the number of official grant files that contained this
      documentation.

Table 2. Official File Review Results

Contents                               Number of Files                Percent
                                         Containing
Award Phase
Proposal Document                              36                      100%
Budget Justification                           36                      100%
Request for Procurement Action                 36                      100%
OGC Review                                     36                      100%
SBCR Review                                    34                      94.4%
OMB A-133 Audit Results                         4                      11.1%
Summary of Decision                            26                      72.2%
Signed Award Document                          36                      100%
Monitoring Phase
Financial Progress Reports and                 22                      61.1%
Evidence of Review
Project Progress Reports and                   21                      58.3%
Evidence of Review

      While the official files generally contained all information related to the pre-
      award process, support for decisions made during this phase was missing
      in 10 files. Additionally, only four files showed evidence that OMB A-133
      audit results were reviewed. Progress reports (and evidence of progress
      report review) were available in approximately 60 percent of the grant files
      reviewed.

      In addition to the official files, project officers have developed their own
      files for storing grantee documentation. These files contain award
      documents and project progress reports. Subsequent to the review of the
      official DC files, OIG reviewed the associated HR files and found that the
      latter contained project progress reports and evidence that these reports
      were reviewed, which had not been included in the official DC file.
      However, the project officer files did not contain the financial progress
      report information. Some project officers stated that they do not have
      access to this information because DC is responsible for reviewing these
      reports.

      No Standards for File Organization and Content

      Grant files are inconsistently organized and incomplete because NRC
      management has not established standards or requirements for the


                                     15
                                          Audit of NRC’s Grant Management Program



content and organization of these files. Each specialist who is responsible
for awarding grants is allowed to organize grant files as they see fit.
Furthermore, while the associated branch chiefs review grant files before
awarding grants, these reviews are to ensure that all outstanding issues
are resolved and grant award documents are accurate. These reviews do
not determine if the grant file is complete or uniformly organized.
Additionally, after the grant is awarded, no checks are performed to
ensure that the grant files contain all related progress reports.

Furthermore, NRC lacks a means to provide access to all grant
information to all parties needing this information. The two major players
in the competitive grants process, HR and DC, are housed in separate
headquarters locations that are not within walking distance of each other,
and because the files are maintained in hard copy, there is no easy way to
share information.

While steps have been taken to provide electronic access to award
documentation, access to and content of these electronic documents is
inconsistent. Specifically, a shared drive on NRC’s internal network was
created to allow HR and DC staff to view electronic copies of grant
documentation; however, HR project officers state that they cannot always
locate current grant documents in this drive. Additionally, DC has taken
steps to upload electronic copies of award and monitoring documents to
the Automated Acquisition Management System. However, project
officers do not have access to this system and there is no quality
assurance steps to ensure all documents are uploaded. Furthermore, one
of the Lean Six Sigma goals was to recommend a formal, electronic
tracking and reporting system; however, while this issue was addressed
during the process, a recommendation was never developed.

Decisionmakers Lack Access to All Relevant Information

Without timely and easy access to all relevant information on each grant
award, NRC decisionmakers cannot always make fully informed decisions
about awarding and managing grants. When awarding a grant, NRC staff
should have access to all information about the grantee and its ability to
perform the objectives of the grant. To help in this decision, NRC staff
should document that they have reviewed OMB A-133 audit results as
these reports show the financial stability of the grantee. Additionally, NRC
staff should have access to all progress reports, both financial and project,
for past NRC grants as these reports show grantees’ past performance
and ability to comply with grant objectives and terms and conditions of
past awards. Without access to both financial and project progress
reports, project officers cannot assess whether project spending appears
to align with project progress.




                              16
                                         Audit of NRC’s Grant Management Program



Recommendations

OIG recommends that the Executive Director for Operations:

6.    Develop a method for sharing up-to-date official file/grant
      documentation with all involved parties to include a formal
      electronic tracking and reporting system.

7.    Establish requirements for the content and organization of NRC
      official grant files.

8.    Develop a quality assurance process for ensuring official grant files
      are complete.




                             17
                                               Audit of NRC’s Grant Management Program



E.   NRC Has Not Issued a Regulation on Debarment and Suspension

     Federal agencies with grant programs are required to issue regulations
     establishing their policies and procedures for debarment and suspension
     of irresponsible grantees. NRC has not issued such a regulation because
     agency officials were unaware of the requirement. Without issuing a
     regulation, NRC risks non-compliance with Federal requirements and may
     not be adequately protected if an irresponsible grantee misuses agency
     grant funds.

     Debarment and Suspension Requirements

     Executive Order 12549, “Debarment and Suspension,” requires Federal
     agencies to participate in a system for debarment and suspension from
     programs and activities involving Federal financial assistance, including
     grants. The purpose of a debarment and suspension system is to protect
     the public interest by ensuring that the Government conducts business
     only with responsible entities. Per the executive order, debarment or
     suspension of a participant in one agency’s program means they are
     barred from working with all other agencies as well. Executive Order
     12549 also requires agencies to issue regulations governing their
     implementation of the order, consistent with guidelines provided by OMB.

      Agency regulations concerning debarment and suspension must be
     issued in 2 CFR, Subtitle B, “Federal Agency Regulations for Grants and
     Agreements.”

     NRC Has Not Issued a Required Regulation

     While NRC has not issued a regulation in 2 CFR, Subtitle B, establishing
     the agency’s policies and procedures for debarment and suspension, 22
     other agencies have issued such a regulation. These agencies include
     larger entities, such as the Department of Health and Human Services and
     Department of Defense, and smaller entities, such as the Peace Corps
     and the Corporation for National and Community Service.

     NRC has not issued a regulation on debarment and suspension because
     agency officials were unaware of the requirement. During the
     September 14, 2009, audit exit conference, an OGC Associate General
     Counsel said Executive Order 12549 applies to NRC and that since
     becoming aware of the matter (through the draft audit report), OGC has
     begun drafting a regulation.

     Without issuing a regulation if the requirement applies, NRC risks non-
     compliance with Federal requirements and may not be adequately
     protected if an irresponsible grantee misuses agency grant funds.


                                  18
                                       Audit of NRC’s Grant Management Program



Recommendation

OIG recommends that the Executive Director for Operations and the
General Counsel:

9.    Issue a regulation on suspension and debarment.




                            19
                                                 Audit of NRC’s Grant Management Program



IV.   CONCLUSION

         Due to the more than 36-fold growth in NRC’s grant program since
          FY 2005, a primary agency focus has been on developing the program
         infrastructure to allow NRC to award grant funds appropriated by
         Congress in a timely manner. However, it is equally important that NRC
         maintains proper oversight over grantee use of funds and ensures that
         these funds are used appropriately and as intended. Although grant
         oversight is not associated with “substantial involvement” by the
         Government with the grantee, it is still critical that NRC staff perform
         adequate oversight to prevent and detect fraud, waste, and abuse in the
         grants they administer. Until NRC management provides agency staff with
         guidance and training in grants, the agency lacks assurance that an
         appropriate level of oversight is being performed over its assistance
         dollars.




                                     20
                                                Audit of NRC’s Grant Management Program



V.   AGENCY COMMENTS

        At an exit conference on September 14, 2009, NRC officials agreed with
        the report contents and provided editorial suggestions, which OIG
        incorporated as appropriate.




                                    21
                                                  Audit of NRC’s Grant Management Program



VI.   CONSOLIDATED LIST OF RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1.    Resolve outstanding Lean Six Sigma issues, including definition of
               the competitive grant process, roles and responsibilities,
               development of a shared electronic grant database, and scope of
               SBCR reviews.

         2.    Update Management Directive 11.6 to comprehensively address
               NRC’s competitive and noncompetitive grant program, including (a)
               roles and responsibilities of individuals and offices involved in the
               grant process, (b) process for awarding grants, and (c) required
               monitoring by project officers.

         3.    Issue interim guidance to accomplish the intent of recommendation
               2, pending revision of Management Directive 11.6.

         4.    Develop grant specific training requirements for staff who work on
               grants to include a reasonable period of time (such as 18 months)
               for completion of the training.

         5.    Ensure that staff working on grants complete the required training
               within the specified timeframe identified in response to
               recommendation 4.

         6.    Develop a method for sharing up-to-date official file/grant
               documentation with all involved parties to include a formal
               electronic tracking and reporting system.

         7.    Establish requirements for the content and organization of NRC
               official grant files.

         8.    Develop a quality assurance process for ensuring official grant files
               are complete.

         OIG recommends that the Executive Director for Operations and the
         General Counsel:

         9.    Issue a regulation on suspension and debarment.




                                      22
                                                Audit of NRC’s Grant Management Program



                                                                           Appendix A
SCOPE AND METHODOLOGY

       Auditors evaluated NRC’s grants management program to determine if
       NRC had established and implemented an effective system of internal
       controls.

       The audit team reviewed relevant criteria, including, Title 2, Code of
       Federal Regulations, “Grants and Agreements”; the Federal Funding
       Accountability and Transparency Act of 2006; and the General Accounting
       Office (now renamed Government Accountability Office) Standards for
       Internal Control in the Federal Government. Additionally, auditors
       reviewed NRC policies, including Management Directive 11.6, Financial
       Assistance Program. Furthermore, the audit team used the National
       Procurement Fraud Task Force, Grant Fraud Committee, A Guide to
       Grant Oversight and Best Practices for Combating Grant Fraud, to help
       identify best practices for managing a grant program.

       At headquarters in Rockville, MD, auditors interviewed NRC staff and
       management from the Division of Contracts, Office of the General
       Counsel, Office of Human Resources, Office of Nuclear Regulatory
       Research, and Office of Small Business and Civil Rights to gain an
       understanding of their roles and responsibilities in the grants management
       program. Auditors also conducted interviews with Department of
       Education and National Nuclear Security Administration officials to
       determine best practices in managing a grants program.

       Auditors reviewed a random sample of NRC official files for grants
       awarded during FY 2007 and FY 2008. Auditors reviewed these files to
       determine documentation completeness related to the award and
       monitoring of grants.

       This work was conducted from March 2009 through August 2009 in
       accordance with generally accepted Government auditing standards.
       Those standards require that we plan and perform the audit to obtain
       sufficient, appropriate evidence to provide a reasonable basis for our
       findings and conclusions based on our audit objectives. We believe that
       the evidence obtained provides a reasonable basis for our findings and
       conclusions based on our audit objectives. The work was conducted by
       Steven Zane, Team Leader; Judy Gordon, Quality Assurance Manager;
       Rebecca Underhill, Audit Manager; and Elaine Kolb, Senior Auditor.




                                    23
                           Audit of NRC’s Grant Management Program




[Page intentionally left blank.]




              24
                                                  Audit of NRC’s Grant Management Program



                                                                             Appendix B
BEST PRACTICES

        Auditors developed a list of grant “best practices” based on (1) interviews
        with Department of Education and National Nuclear Security
        Administration staff who are involved with managing grants and (2)
        reviews of documents, including the National Procurement Fraud Task
        Force White Paper, A Guide to Grant Oversight and Best Practices for
        Combating Grant Fraud. As NRC works to formalize the grant process,
        the agency should consider incorporating the following best practices:

           Incorporate measurable goals into the grant agreement, then follow up
            and determine the effectiveness of grantee programs funded. Value
            added should be considered.

               o As an example, agencies could track the number of degrees
                 granted as the result of financial assistance provided for
                 education.

               o Another example would be to track how agency money is
                 leveraged with private funds.

           Review OMB A-133 results to determine degree of monitoring needed.

           Perform sufficient oversight and monitoring of grantees to ensure the
            integrity of the grant process.

           Determine need for site visits based on risk associated with grantees.
            Visit the grantees that need the most attention.

           Develop a policy and procedures manual that takes a lifecycle
            approach to awarding and managing grants.

           Require Federal grant recipients to certify that statements made in the
            grant application are true and correct.

           Ensure that grant participants have been properly trained.

               o Grant recipients may find it useful to receive training on
                 detecting and preventing grant fraud.

               o Grant administrators could benefit by receiving training on
                 grants management.




                                      25
                                             Audit of NRC’s Grant Management Program



       o Investigators and auditors need training to effectively prevent
         and prosecute fraudulent grant activity.

   Maintain all documentation in the official file.

   Include project officers on the distribution list to receive award
    documents.

   Raise awareness among agency staff involved in the grant process
    about the nature of grants. The purpose of a grant is to help the
    grantee achieve its grant outcome, and not to benefit the granting
    agency.

   Foster a good working relationship between the program office and the
    granting official. This promotes a free and open exchange of
    information and ideas.

   Ensure regular communication among the agency, the grant recipient,
    and the public to increase awareness of how money is spent.

   Share information in and among agencies to prevent and detect fraud.




                                26
